No. 20-442

IN THE
SUPREME COURT OF THE UNITED STATES

KELLY COLVARD PARSONS,
Petitioner,
v.
RICHARD JEARL PARSONS,

Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE TENNESSEE SUPREME COURT

PROOF OF SERVICE TO BRIEF IN OPPOSITION TO PETITION
FOR WRIT OF CERTIORARI

GEORGE LAWRENCE RICE, ITT #4134565)
COUNSEL OF RECORD FOR RESPONDENT
RICE CAPERTON RICE PLLC

275 Jefferson Avenue

Memphis, Tennessee 38103
lrice@ricelaw.com

(901) 526-6701
PROOF OF SERVICE

The undersigned certifies that on November 4th, 2020 a true and exact copy of
the foregoing documents has been served on:

United States Supreme Court, Clerk’s Office

1 First Street, NE, Washington, DC 20543

via third-party commercial carrier within three (3) calendar days
(specifically, via Federal Express standard overnight delivery)

and upon all parties required to be served, specifically:

Michell D. Moskovitz, Esq.

Attorney for Petitioner/Appellant

530 Oak Court Drive, Suite 355

Memphis, Tennessee 38117

(901) 821-0044 telephone

MMoskovitz@smmlawoffice.com

via first-class U.S. Mail, postage pre-paid, and via electronic

  

275 Jefferson Avenue
Memphis, Tennessee 38103
lrice@ricelaw.com

(901) 526-6701
